1a
APPENDIX A
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
DEPARTMENT 613
IN RE PIVOTAL
SOFTWARE, INC.
SECURITIES LITIGATION
This Document Relates to:
ALL ACTIONS

Case No.
CGC-19-576750
ORDER DENYING
DEFENDANTS’
JOINT MOTION TO
STAY DISCOVERY

(Filed Mar. 4, 2021)
INTRODUCTION
This matter came on regularly for hearing on February 18, 2021 in Department 613, the Honorable
Andrew Y.S. Cheng, presiding. David W. Hall appeared
for plaintiff Zhung Tran. Wesley A. Wong and Reed
Kathrein appeared for plaintiff Alandra Mothorpe.
John Jasnoch appeared for plaintiff Jason Hill. Jordan
Eth, Mark RS Foster, Karen Leung and Randall D Zack
appeared for defendants Pivotal Software Inc., Robert
Mee, Cynthia Gaylor, Paul Maritz, Michael Dell, Zane
Rowe, Egon Durban, William D. Green, Marcy S.
Klevorn and Khozema Z. Shipchandler (collectively
the “Pivotal Defendants”). Gavin M. Masuda and
Elizabeth L. Deeley appeared for the Underwriter

2a
Defendants.1 Andrew T Sumner and Gidon Caine appeared for Dell Technologies, Inc. (“Dell”).2
Having reviewed and considered the arguments,
pleadings, and written submissions of all parties, the
Court DENIES Defendants’ joint motion to stay discovery.
BACKGROUND
This is a securities class action on behalf of all
those who purchased or otherwise acquired Pivotal
common stock, pursuant or traceable to the registration statement and prospectus (collectively, the “Offering Materials”), issued in connection with Pivotal’s
April 20, 2018 initial public offering (the “IPO” or “Offering”). (Compl. ¶ 1.) The Complaint asserts strict liability claims under Sections 11, 12(a)(2), and 15 of the
Securities Act of 1933 (the “Securities Act”) against
Pivotal, Dell, certain Pivotal and Dell ofﬁcers and directors, and the underwriters of the IPO. (See id.)

1

Morgan Stanley & Co. LLC; Goldman Sachs & Co. LLC;
Citigroup Global Markets Inc.; Merrill Lynch, Pierce, Fenner &
Smith, Inc.; Barclays Capital Inc.; Credit Suisse Securities (USA)
LLC; RBC Capital Markets, LLC; UBS Securities LLC; Wells
Fargo Securities LLC; Keybanc Capital Markets Inc.; William
Blair & Co., LLC; Mischler Financial Group, Inc.; Samuel A.
Ramirez & Co., Inc.; Siebert Cisneros Shank & Co., LLC; and
Williams Capital Group, L.P. (the latter two, which have since
merged, renamed “Siebert Williams Shank & Co., LLC”).
2
The Pivotal Defendants, Dell and the Underwriter Defendants are collectively referred to as “Defendants”.

3a
On October 20, 2020, the parties ﬁled a Joint Case
Management Conference Statement. In the statement,
Defendants requested that the Court stay discovery
pursuant to the Private Securities Litigation Reform
Act (“PSLRA”). Plaintiffs opposed this request.
At the October 27, 2020 Case Management Conference (“CMC”), this Court heard both sides’ positions
on the discovery stay issue. After the CMC, the Court
issued its Order After October 27, 2020 Case Management Conference. In its Order, the Court denied Defendants’ request for a discovery stay and ordered the
parties to proceed with bilateral written discovery on
all issues including both merits and class certiﬁcation
discovery. The Court also ordered Plaintiffs to ﬁle their
consolidated amended complaint by January 15, 2021
and set a hearing on Defendants’ demurrer(s) for June
16, 2021.
On December 14, 2020, Defendants ﬁled a petition
for writ of mandate requesting that the Court of Appeal (1) vacate this Court’s Order denying Defendants’
request for a discovery stay, and (2) grant Defendants’
request for an immediate stay of discovery. The Court
of Appeal denied the petition. The court noted that “[i]n
sharp contrast to the briefing before [it], petitioners
did not thoroughly present the positions urged in the
present petition by way of a stay motion” and “[s]uch a
motion represents another, unexhausted, adequate
remedy at law available to petitioners.” (Writ Order, 1.)
On January 5, 2021, Defendants ﬁled their joint motion pursuant to the discovery stay provision of the

4a
PSLRA. (Defendants’ Notice of Joint Motion and Joint
Motion to Stay Discovery [“Motion”], 6.)
STATUTORY PROVISION AT ISSUE
The PSLRA’s discovery stay provides “[i]n any private action arising under this subchapter [15 U.S.C.
§ 77a et seq.], all discovery and other proceedings shall
be stayed during the pendency of any motion to dismiss, unless the court ﬁnds, upon the motion for any
party, that particularized discovery is necessary to preserve evidence or to prevent undue prejudice to that
party.” (15 U.S.C. §77z-1, subd. (b)(1).)
DISCUSSION AND ANALYSIS
Defendants assert that the PSLRA’s automatic
discovery stay applies here as evidenced by (1) its plain
language and (2) its legislative history. The Court disagrees.
I.

The Plain Language of the Statute
a. Background Law

In interpreting a statute, the Court’s fundamental
task is to “ascertain the intent of the lawmakers so as
to effectuate the purpose of the statute.” (Mays v. City
of Los Angeles (2008) 43 Cal.4th 313, 321.) The Court
“start[s] with the language of the statute, giving the
words their usual and ordinary meaning, while construing them in light of the statute as a whole and the
statute’s purpose.” (Apple, Inc. v. Sup. Ct. (2013) 56

5a
Cal.4th 128, 135 [internal quotations and citation
omitted].) “[T]o seek the meaning of a statute is not
simply to look up dictionary deﬁnitions and then stitch
together the results. Rather, it is to discern the sense
of the statute, and therefore its words, in the legal and
broader culture.” (Hodges v. Sup. Ct. (1999) 21 Cal. 4th
109, 114, 980 P.2d 433, 437 [emphasis in original] [internal quotations and citation omitted].) “The statute’s
structure and its surrounding provisions can reveal
the semantic relationships that give more precise
meaning to the speciﬁc text being interpreted, even if
the text may have initially appeared to be unambiguous[.]” (Weatherford v. City of San Rafael (2017) 2
Cal.5th 1241, 1247 [citing Poole v. Orange County Fire
Authority (2015) 61 Cal.4th 1378, 1391 [conc. opn. of
Cuéllar, J]].)
b. Application
i. The PSLRA
Defendants argue that by its plain terms, the
PSLRA governs “any private action arising under” the
Securities Act. Defendants argue that because a Securities Act suit in state court is just as much a “private
action arising under” the Securities Act as a Securities
Act suit in federal court, the provision applies to state
actions like this one that bring claims under the Securities Act. The Court is unpersuaded. Defendants fail
to cite a single reported decision in California holding
the PSLRA’s discovery stay applies to securities class
actions ﬁled in state court. Indeed, there is no legal

6a
authority for the proposition. However, in Diamond
Multimedia Systems, Inc. v. Superior Court, the dissenting opinion explained the PSLRA “adopts a number of measures intended by Congress to remove
incentives to shareholder participation in what the
[PSLRA]’s managers called class action litigation
‘abuses’ . . . [including] a mandatory stay of discovery
in federal court litigation while a motion to dismiss is
pending[.]” (Diamond Multimedia Systems, Inc. v. Sup.
Ct. (1999) 19 Cal.4th 1036, 1069 [Brown, J., dissenting]
[emphasis supplied].)
The Court ﬁnds the plain language of the discovery stay’s surrounding provisions evidences that the
provision only applies to federal court. The complete
absence of any reference to state courts stands in contrast to other provisions in the PSLRA that do make
explicit reference to state courts. (See, e.g., 15 U.S.C.
§77z-1, subd. (a)(7)(b)(iii) [“A statement made in accordance with clause (i) or (ii) concerning the amount
of damages shall not be admissible in any Federal or
State judicial action or administrative proceeding”];
15 U.S.C. §21D(a)(7)(B)(iii) [same]; 15 U.S.C. §78u4(a)(7)(B)(iii) [same].) This suggests that in drafting
the PSLRA, Congress was explicit where it intended
the statute’s provisions to reach state courts. The sheer
lack of any such express direction in the text of the
PSLRA discovery stay strongly indicates that it was
never intended to apply in state court. (See, e.g., Keene
Corp. v. United States (1993) 508 U.S. 200, 208 [courts
must “refrain from reading into the statute a phrase
that Congress has left it out”].)

7a
Defendants’ contrary interpretation isolates the
phrase “any private action” without any regard to the
provision as a whole, much less the overall statutory
structure. Statutory language must be construed in
light of the “statute as a whole” and the statute’s purpose. (Apple, supra, 56 Cal.4th at 135.) Not only is the
full provision itself silent on application to state court,
but the statute as a whole consistently limits its procedural provisions to action under the Federal Rules
of Civil Procedure and is replete with procedural devices and associated federal nomenclature. (See, e.g.,
15 U.S.C. §77z-1(a)(1); 15 U.S.C. §77z-1(a)(3)(A)(iii);
15 U.S.C. §77z-1(a)(3)(B)(iii)(cc); 15 U.S.C. §77z1(a)(3)(B)(vi); 15 U.S.C. §77z-1(a)(7)(B)(iii); 15 U.S.C.
§77z-1(c)(1); 15 U.S.C. §77z-1(c)(2); 15 U.S.C. §77z1(c)(3)(A); 15 U.S.C. §77z-1(c)(3)(B); 15 U.S.C. §77z1(c)(3)(C).) Nothing in the discovery stay provisions
indicates any deviation from the statute’s overarching
focus on federal procedure in federal court.
ii. The Securities Litigation Uniform
Standards Act of 1998
Interpreting the discovery stay provision to apply
to state courts would also render the Securities Litigation Uniform Standards Act of 1998 (“SLUSA”) and
its discovery stay redundant. SLUSA amended the
Securities Act to provide “[u]pon a proper showing, a
court may stay discovery proceedings in any private
action in a State court as necessary in aid of its jurisdiction, or to protect or effectuate its judgments, in an
action subject to a stay of discovery pursuant to this

8a
subsection.” (15 U.S.C. §77z-1, subd. (b)(4); see also
In re Dot Hill Systems Corp. Securities Litigation (S.D.
Cal. 2008) 594 F.Supp.2d 1150, 1165 [“The PSLRA
imposes a discovery stay in private federal securities
litigation during motion dismiss proceedings. When
Congress enacted the [SLUSA] in 1988, “[t]he legislative history explains that the purpose of this provision
is to prevent plaintiffs from circumventing the stay of
discovery under the [PSLRA] by using State court discovery, which may not be subject to those limitations,
in an action ﬁled in State Court[.] [emphasis supplied]
[citations omitted]; see also In re Transcrypt Intern.
Securities Litigation (D.Neb. 1999) 57 F.Supp.2d 836,
841-842 [“In an effort to save beleaguered corporations
from ‘frivolous lawsuits,’ Congress in 1995 passed the
[PSLRA] by which it required, among other protections, a stay of discovery in securities fraud class actions brought in federal court . . . While the new
provisions apparently had the desired effect of reducing the number of federal class actions brought against
corporate defendants, the restrictions were later seen
as responsible for a corresponding increase in the number of securities fraud cases brought in state court . . .
Thus was born [Section 27(b)(1) of SLUSA]”].) If the
PSLRA’s discovery stay already provided for an automatic stay of discovery in state court securities cases,
there would have been no need to enact Section
27(b)(1) of SLUSA to give federal courts the power to
stay discovery in related state securities cases.

9a
II.

The Court’s Interpretation Is Consistent
with Cyan, Inc. v. Beaver County Employees
Retirement Fund

The discovery stay provision does not explicitly
reference the Federal Rules of Civil Procedure. Nonetheless, the Court ﬁnds that the discovery stay is of
procedural nature as it (1) does not alter the range of
conduct or the class of persons that the Securities Act
punishes or (2) modify the elements of a Securities Act
claim, and therefore only applies to actions ﬁled in federal court. (See In re Martinez (2017) 3 Cal.5th 1216,
122; Cyan, Inc. v. Beaver County Employees Retirement
Fund (2018) 138 S.Ct. 1061. [“The Reform Act included
both substantive reforms, applicable in state and federal court alike, and procedural reforms, applicable
only in federal court.”]; Chavez v. Keat (1995) 34
Cal.App.4th 1406, 1413 [“The general rule is that
where an action founded on a federal statute is
brought in a state court, the law of the state controls
in matters of practice and procedure unless the federal
statute provides otherwise.”]; Deaile v. General Telephone Co. of California (1974) 40 Cal.App.3d 841, 851
[identifying discovery as a matter of procedure];
Caranchini v. Peck (D. Kansas 2018) 355 F.Supp.3d
1052 1061 [ﬁnding an act’s mandatory discovery stay
provisions are “strictly procedural in nature and do not
affect the outcome of a case”].)
The Court’s interpretation is consistent with
Cyan. In Cyan, the U.S. Supreme Court identiﬁed the
PSLRA “safe harbor” provisions as “substantive” and
thus applicable even when a Securities Act claim is

10a
brought in state court. (See Cyan, supra, 138 S.Ct. at
1072-1073.) The PSLRA safe harbor functions to exempt certain conduct from liability while imposing additional substantive elements on claims premised on
certain forward-looking statements. The Court then
identiﬁed that other PSLRA provisions, citing the statute’s lead plaintiff provision as an example, “modiﬁed
the procedures used in litigating securities actions,
and applied only when such a suit was brought in federal court.” (Id. at 1067.) The PSLRA lead plaintiff provisions do not impact liability under the Securities Act,
but instead merely prescribe a process by which a
plaintiff is appointed to lead the case.
Here, the timing of discovery does not alter the
range of conduct or the class of person liable under the
Securities Act. It does not modify the elements of the
claims alleged in this case. Rather, it merely prescribes
a process for gathering evidence to prove up those unaltered elements and thus determine whether a defendants’ alleged conduct falls within the Securities
Act’s unaltered scope of liability. Consistent with Cyan,
the PSLRA discovery stay is procedural, not substantive, and thus does not apply in state court. (See
Chavez, supra, 34 Cal.App.4th at 1413; Deaile, supra,
40 Cal.App.3d at 851.)
III. Legislative History
The legislative history of the PSLRA supports
the Court’s conclusion. Federal Comments from the
Minutes of the Civil Rules Advisory Committee from

11a
February 1995 and April 1994 show that the PSLRA’s
discovery stay was viewed and intended as a procedural reform inapplicable to state courts. Third Circuit
Judge Anthony Joseph Scirica and Duke Law Professor Thomas D. Rowe, Jr. – both members of the Advisory Committee on Civil Rules – informed the Advisory
Committee that: “[o]ne directly procedural approach is
to adopt heightened pleading requirements . . . and
staying discovery during the pleading stage [subject to
exceptions].” (Declaration of David W. Hall in Support
of Plaintiffs’ Opposition to Defendants’ Joint Motion to
Stay Discovery [“Hall Decl.”], Ex. K [Advisory Committee on Civil Rules, Minutes, dated February 16-17,
1995].) The minutes also state the “central question
posed by [the pending securities litigation legislation]
is whether securities litigation is so unique that it
needs special procedural rules[.]” (Id. [emphasis supplied].) Similarly, attorney Herbert M. Wachtell’s testimony before the Advisory Committee characterized
the PSLRA discovery stay as a procedural device. (See
Hall Decl., Ex. L at 11-12 [Advisory Committee on Civil
Rules, Minutes, dated April 28-29, 1994] [noting three
procedural devices have been particularly effective in
securities class actions, the third a “developing trend
to stay discovery if a substantial motion is made under
Rule 9(b) or 12(b)(6)”].) As discussed, supra, in Cyan,
the Supreme Court explained the PSLRA’s procedural
reforms are only applicable in federal court.
Finally, no signiﬁcant class action litigation was
brought in state court prior to the PSLRA. (Committee on Commerce Report on H.R. 1689, Securities

12a
Litigation Uniform Standards Act of 1998, H.R. Rep.
No. 105-640, at 9-10 (July 21, 1998).) Thus, in enacting
the PSLRA’s discovery stay, Congress focused on remedying the problem of discovery abuses in federal
courts, not state courts.
The Court ﬁnds that the PSLRA’s discovery stay
does not apply to this case.
CONCLUSION
Defendants’ motion to stay discovery pursuant to
15 U.S.C. §77z-1, subdivision (b)(1) is DENIED.
IT IS SO ORDERED.
Dated: March 4, 2021

/s/ Andrew Y.S. Cheng
ANDREW Y.S. CHENG
Judge of the Superior Court

13a
APPENDIX B
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
PIVOTAL SOFTWARE, INC. et al.,
Petitioners,
v.
SUPERIOR COURT FOR
THE CITY AND COUNTY
OF SAN FRANCISCO,
Respondent;
JASON HILL et al.,
Real Parties in Interest.
A162228
San Francisco No. CGC19576750
(Filed Mar. 23, 2021)
BY THE COURT:*
The petition for writ of mandate and accompanying
stay request are denied.
Date 03/22/2021

Simons, J.

Acting P.J.

ACTING P.J.

* Before Simons, Acting P.J., Burns, J. and Seligman, J.
(Judge of the Alameda County Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution)

14a
APPENDIX C
Court of Appeal, First Appellate District,
Division Five – No. A162228
S267949
IN THE SUPREME COURT OF CALIFORNIA
En Banc
PIVOTAL SOFTWARE, INC. et al., Petitioners,
v.
SUPERIOR COURT OF CITY AND COUNTY
OF SAN FRANCISCO, Respondent;
JASON HILL et al., Real Parties in Interest.
(Filed Apr. 14, 2021)
The requests to appear as counsel pro hac vice are
granted.
The petition for review and application for stay are
denied.
CANTIL-SAKAUYE
Chief Justice

15a
APPENDIX D
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
DEPARTMENT 613
IN RE PIVOTAL
Case No.
SOFTWARE, INC.
CGC-19-576750
SECURITIES LITIGATION ORDER AFTER
This Document Relates to:
OCTOBER 27, 2020
CASE MANAGEMENT
ALL ACTIONS
CONFERENCE
(Filed Oct. 27, 2020)
This matter came on regularly for a case management conference in the above matter on October 27,
2020. David W. Hall appeared for plaintiff Zhung
Tran. Danielle Smith appeared for plaintiff Alandra
Mothorpe. John Jasnoch appeared for plaintiff Jason
Hill. Jordan Eth and Mark Foster appeared for defendant Pivotal Software Inc. Gavin M. Masuda and Elizabeth L. Deeley appeared for defendant Morgan Stanley
L & W Global. Having considered the joint case management conference statement, the arguments of the
parties, and all relevant pleadings, the Court orders as
follows:
1. Plaintiffs shall file their consolidated amended
complaint no later than January 15, 2021. Defendants
shall ﬁle their response to the consolidated amended
complaint no later than March 17, 2021.

16a
2. A hearing on Defendants’ demurrer(s) is set
for June 16, 2021, at 9:00 a.m.
3. The next case management conference is set
for February 18, 2021, at 10:30 a.m. The parties’
joint CMC statement is due no later than February
11, 2021.
4. Defendants’ request for a discovery stay is denied. The parties shall proceed with bilateral written
discovery on all issues including both merits and class
certiﬁcation discovery. Any other form of discovery
(depositions) will require the Court’s authorization.
IT IS SO ORDERED.
Dated: October 27, 2020 /s/ Andrew Y.S. Cheng
ANDREW Y.S. CHENG
Judge of the Superior Court

17a
APPENDIX E
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
PIVOTAL SOFTWARE,
INC., et al,
Petitioners,

A161571

v.
SUPERIOR COURT
FOR THE COUNTY
OF SAN FRANCISCO,

(San Francisco Super. Ct.
No. CGC-19-576750)

Respondent;
ZHUNG TRAN, et al.,
Real Parties in Interest.
(Filed Dec. 17, 2020)
BY THE COURT:*
The petition for writ of mandate and accompanying stay request are denied. Having considered the
petition’s arguments and other circumstances made
apparent by the record in this case, the court declines
to review the issue raised in the petition by extraordinary writ. While not an exhaustive statement of
* Before Simons, Acting P.J., Burns, J. and Reardon, J.
(Judge of the Alameda County Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution)

18a
the court’s reasons for denying the petition, the court
observes that the petition challenges a ruling that was
made based on the parties’ summary arguments in a
case management conference statement. In sharp contrast to the brieﬁng before this court, petitioners did
not thoroughly present the positions urged in the
present petition by way of a stay motion filed in the
superior court. Such a motion represents another, unexhausted, adequate remedy at law available to petitioners. Additionally, and irrespective of the foregoing,
the petition does not persuasively demonstrate that
petitioners will suffer cognizable irreparable harm absent writ review. (Omaha Indemnity Co. v. Superior
Court (1989) 209 Cal.App.3d 1266, 1269, 1271-1274;
Ordway v. Superior Court (1988) 198 Cal.App.3d 98,
101, fn. 1, disapproved on other grounds, Knight v.
Jewett (1992) 3 Cal.4th 296.)
Date 12/16/2020 Simons, J., Acting P.J.

19a
APPENDIX F
15 U.S.C. § 77z-1. Private securities litigation
(a) Private class actions
(1) In general
The provisions of this subsection shall apply
to each private action arising under this subchapter that is brought as a plaintiff class action pursuant to the Federal Rules of Civil Procedure.
(2) Certiﬁcation ﬁled with complaint
(A) In general
Each plaintiff seeking to serve as a representative party on behalf of a class shall provide a sworn certiﬁcation, which shall be
personally signed by such plaintiff and ﬁled
with the complaint, that—
(i) states that the plaintiff has reviewed the complaint and authorized its
ﬁling;
(ii) states that the plaintiff did not
purchase the security that is the subject
of the complaint at the direction of plaintiff ’s counsel or in order to participate in
any private action arising under this subchapter;
(iii) states that the plaintiff is willing
to serve as a representative party on behalf of a class, including providing testimony at deposition and trial, if necessary;

20a
(iv) sets forth all of the transactions
of the plaintiff in the security that is the
subject of the complaint during the class
period speciﬁed in the complaint;
(v) identiﬁes any other action under
this subchapter, ﬁled during the 3-year
period preceding the date on which the
certiﬁcation is signed by the plaintiff, in
which the plaintiff has sought to serve, or
served, as a representative party on behalf of a class; and
(vi) states that the plaintiff will not
accept any payment for serving as a representative party on behalf of a class beyond the plaintiff ’s pro rata share of any
recovery, except as ordered or approved
by the court in accordance with paragraph (4).
(B) Nonwaiver of attorney-client privilege
The certiﬁcation ﬁled pursuant to subparagraph (A) shall not be construed to be a
waiver of the attorney-client privilege.
(3) Appointment of lead plaintiff
(A) Early notice to class members
(i) In general
Not later than 20 days after the
date on which the complaint is ﬁled, the
plaintiff or plaintiffs shall cause to be
published, in a widely circulated national business-oriented publication or

21a
wire service, a notice advising members
of the purported plaintiff class—
(I) of the pendency of the action, the claims asserted therein, and
the purported class period; and
(II) that, not later than 60 days
after the date on which the notice is
published, any member of the purported class may move the court to
serve as lead plaintiff of the purported class.
(ii) Multiple actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this subchapter is ﬁled, only the plaintiff or plaintiffs in the ﬁrst ﬁled action shall be
required to cause notice to be published
in accordance with clause (i).
(iii) Additional notices may be required under Federal rules
Notice required under clause (i) shall
be in addition to any notice required pursuant to the Federal Rules of Civil Procedure.
(B) Appointment of lead plaintiff
(i) In general
Not later than 90 days after the date
on which a notice is published under subparagraph (A)(i), the court shall consider

22a
any motion made by a purported class
member in response to the notice, including any motion by a class member who is
not individually named as a plaintiff in
the complaint or complaints, and shall
appoint as lead plaintiff the member or
members of the purported plaintiff class
that the court determines to be most capable of adequately representing the interests of class members (hereafter in
this paragraph referred to as the “most
adequate plaintiff ”) in accordance with
this subparagraph.
(ii) Consolidated actions
If more than one action on behalf of a
class asserting substantially the same
claim or claims arising under this subchapter has been ﬁled, and any party has
sought to consolidate those actions for
pretrial purposes or for trial, the court
shall not make the determination required by clause (i) until after the decision on the motion to consolidate is
rendered. As soon as practicable after
such decision is rendered, the court shall
appoint the most adequate plaintiff as
lead plaintiff for the consolidated actions
in accordance with this subparagraph.
(iii) Rebuttable presumption
(I) In general
Subject to subclause (II), for purposes of clause (i), the court shall

23a
adopt a presumption that the most
adequate plaintiff in any private action arising under this subchapter is
the person or group of persons that—
(aa) has either ﬁled the complaint or made a motion in response
to a notice under subparagraph
(A)(i);
(bb) in the determination of
the court, has the largest ﬁnancial interest in the relief sought
by the class; and
(cc) otherwise satisﬁes the
requirements of Rule 23 of the
Federal Rules of Civil Procedure.
(II) Rebuttal evidence
The presumption described in
subclause (I) may be rebutted only
upon proof by a member of the purported plaintiff class that the presumptively most adequate plaintiff—
(aa) will not fairly and adequately protect the interests of
the class; or
(bb) is subject to unique defenses that render such plaintiff
incapable of adequately representing the class.

24a
(iv) Discovery
For purposes of this subparagraph,
discovery relating to whether a member
or members of the purported plaintiff
class is the most adequate plaintiff may
be conducted by a plaintiff only if the
plaintiff ﬁrst demonstrates a reasonable
basis for a ﬁnding that the presumptively
most adequate plaintiff is incapable of adequately representing the class.
(v) Selection of lead counsel
The most adequate plaintiff shall,
subject to the approval of the court, select
and retain counsel to represent the class.
(vi) Restrictions on professional plaintiffs
Except as the court may otherwise
permit, consistent with the purposes of
this section, a person may be a lead plaintiff, or an ofﬁcer, director, or ﬁduciary of a
lead plaintiff, in no more than 5 securities
class actions brought as plaintiff class actions pursuant to the Federal Rules of
Civil Procedure during any 3-year period.
(4) Recovery by plaintiffs
The share of any ﬁnal judgment or of any settlement that is awarded to a representative party
serving on behalf of a class shall be equal, on a per
share basis, to the portion of the ﬁnal judgment
or settlement awarded to all other members of
the class. Nothing in this paragraph shall be

25a
construed to limit the award of reasonable costs
and expenses (including lost wages) directly relating to the representation of the class to any representative party serving on behalf of the class.
(5) Restrictions on settlements under seal
The terms and provisions of any settlement
agreement of a class action shall not be ﬁled under
seal, except that on motion of any party to the settlement, the court may order ﬁling under seal for
those portions of a settlement agreement as to
which good cause is shown for such ﬁling under
seal. For purposes of this paragraph, good cause
shall exist only if publication of a term or provision
of a settlement agreement would cause direct and
substantial harm to any party.
(6) Restrictions on payment of attorneys’
fees and expenses
Total attorneys’ fees and expenses awarded by
the court to counsel for the plaintiff class shall not
exceed a reasonable percentage of the amount of
any damages and prejudgment interest actually
paid to the class.
(7) Disclosure of settlement terms to class
members
Any proposed or ﬁnal settlement agreement
that is published or otherwise disseminated to the
class shall include each of the following statements, along with a cover page summarizing the
information contained in such statements:

26a
(A) Statement of plaintiff recovery
The amount of the settlement proposed to
be distributed to the parties to the action, determined in the aggregate and on an average
per share basis.
(B) Statement of potential outcome of
case
(i) Agreement on amount of damages
If the settling parties agree on the
average amount of damages per share
that would be recoverable if the plaintiff
prevailed on each claim alleged under
this subchapter, a statement concerning
the average amount of such potential
damages per share.
(ii) Disagreement on amount of damages
If the parties do not agree on the average amount of damages per share that
would be recoverable if the plaintiff prevailed on each claim alleged under this
subchapter, a statement from each settling party concerning the issue or issues
on which the parties disagree.
(iii) Inadmissibility for certain purposes
A statement made in accordance with
clause (i) or (ii) concerning the amount
of damages shall not be admissible in
any Federal or State judicial action or

27a
administrative proceeding, other than an
action or proceeding arising out of such
statement.
(C) Statement of attorneys’ fees or costs
sought
If any of the settling parties or their counsel intend to apply to the court for an award
of attorneys’ fees or costs from any fund established as part of the settlement, a statement
indicating, which parties or counsel intend to
make such an application, the amount of fees
and costs that will be sought (including the
amount of such fees and costs determined on
an average per share basis), and a brief explanation supporting the fees and costs sought.
(D) Identiﬁcation of lawyers’ representatives
The name, telephone number, and address
of one or more representatives of counsel for
the plaintiff class who will be reasonably available to answer questions from class members
concerning any matter contained in any notice of settlement published or otherwise disseminated to the class.
(E) Reasons for settlement
A brief statement explaining the reasons
why the parties are proposing the settlement.
(F) Other information
Such other information as may be required by the court.

28a
(8) Attorney conﬂict of interest
If a plaintiff class is represented by an attorney who directly owns or otherwise has a beneﬁcial interest in the securities that are the subject
of the litigation, the court shall make a determination of whether such ownership or other interest constitutes a conﬂict of interest sufﬁcient to
disqualify the attorney from representing the
plaintiff class.
(b) Stay of discovery; preservation of evidence
(1) In general
In any private action arising under this subchapter, all discovery and other proceedings shall
be stayed during the pendency of any motion to
dismiss, unless the court ﬁnds, upon the motion of
any party, that particularized discovery is necessary to preserve evidence or to prevent undue prejudice to that party.
(2) Preservation of evidence
During the pendency of any stay of discovery
pursuant to this subsection, unless otherwise ordered by the court, any party to the action with
actual notice of the allegations contained in the
complaint shall treat all documents, data compilations (including electronically recorded or stored
data), and tangible objects that are in the custody
or control of such person and that are relevant to
the allegations, as if they were the subject of a continuing request for production of documents from
an opposing party under the Federal Rules of Civil
Procedure.

29a
(3) Sanction for willful violation
A party aggrieved by the willful failure of an
opposing party to comply with paragraph (2) may
apply to the court for an order awarding appropriate sanctions.
(4) Circumvention of stay of discovery
Upon a proper showing, a court may stay discovery proceedings in any private action in a State
court as necessary in aid of its jurisdiction, or to
protect or effectuate its judgments, in an action
subject to a stay of discovery pursuant to this subsection.
(c) Sanctions for abusive litigation
(1) Mandatory review by court
In any private action arising under this subchapter, upon ﬁnal adjudication of the action, the
court shall include in the record speciﬁc ﬁndings
regarding compliance by each party and each attorney representing any party with each requirement of Rule 11(b) of the Federal Rules of Civil
Procedure as to any complaint, responsive pleading, or dispositive motion.
(2) Mandatory sanctions
If the court makes a ﬁnding under paragraph
(1) that a party or attorney violated any requirement of Rule 11(b) of the Federal Rules of Civil
Procedure as to any complaint, responsive pleading, or dispositive motion, the court shall impose
sanctions on such party or attorney in accordance
with Rule 11 of the Federal Rules of Civil Procedure. Prior to making a ﬁnding that any party or

30a
attorney has violated Rule 11 of the Federal Rules
of Civil Procedure, the court shall give such party
or attorney notice and an opportunity to respond.
(3) Presumption in favor of attorneys’ fees
and costs
(A) In general
Subject to subparagraphs (B) and (C), for
purposes of paragraph (2), the court shall adopt
a presumption that the appropriate sanction—
(i) for failure of any responsive
pleading or dispositive motion to comply
with any requirement of Rule 11(b) of the
Federal Rules of Civil Procedure is an
award to the opposing party of the reasonable attorneys’ fees and other expenses incurred as a direct result of the
violation; and
(ii) for substantial failure of any
complaint to comply with any requirement of Rule 11(b) of the Federal Rules of
Civil Procedure is an award to the opposing party of the reasonable attorneys’ fees
and other expenses incurred in the action.
(B) Rebuttal evidence
The presumption described in subparagraph (A) may be rebutted only upon proof by
the party or attorney against whom sanctions
are to be imposed that—

31a
(i) the award of attorneys’ fees and
other expenses will impose an unreasonable burden on that party or attorney and
would be unjust, and the failure to make
such an award would not impose a
greater burden on the party in whose
favor sanctions are to be imposed; or
(ii) the violation of Rule 11(b) of the
Federal Rules of Civil Procedure was de
minimis.
(C) Sanctions
If the party or attorney against whom
sanctions are to be imposed meets its burden
under subparagraph (B), the court shall
award the sanctions that the court deems appropriate pursuant to Rule 11 of the Federal
Rules of Civil Procedure.
(d) Defendant’s right to written interrogatories
In any private action arising under this subchapter in which the plaintiff may recover money damages
only on proof that a defendant acted with a particular
state of mind, the court shall, when requested by a defendant, submit to the jury a written interrogatory on
the issue of each such defendant’s state of mind at the
time the alleged violation occurred.

32a
15 U.S.C. § 77z-2. Application of safe harbor for
forward-looking statements
(a) Applicability
This section shall apply only to a forward-looking
statement made by—
(1) an issuer that, at the time that the statement is made, is subject to the reporting requirements of section 78m(a) or section 78o(d) of this
title;
(2) a person acting on behalf of such issuer;
(3) an outside reviewer retained by such issuer making a statement on behalf of such issuer;
or
(4) an underwriter, with respect to information provided by such issuer or information derived from information provided by the issuer.
(b) Exclusions
Except to the extent otherwise speciﬁcally provided by rule, regulation, or order of the Commission,
this section shall not apply to a forward-looking statement—
(1) that is made with respect to the business
or operations of the issuer, if the issuer—
(A) during the 3-year period preceding
the date on which the statement was ﬁrst
made—
(i) was convicted of any felony or
misdemeanor described in clauses (i)

33a
through (iv) of section 78o(b)(4)(B) of this
title; or
(ii) has been made the subject of a
judicial or administrative decree or order
arising out of a governmental action
that—
(I) prohibits future violations
of the antifraud provisions of the securities laws;
(II) requires that the issuer
cease and desist from violating the
antifraud provisions of the securities
laws; or
(III) determines that the issuer
violated the antifraud provisions of
the securities laws;
(B) makes the forward-looking statement
in connection with an offering of securities by
a blank check company;
(C) issues penny stock;
(D) makes the forward-looking statement
in connection with a rollup transaction; or
(E) makes the forward-looking statement
in connection with a going private transaction; or
(2) that is—
(A) included in a ﬁnancial statement
prepared in accordance with generally accepted accounting principles;

34a
(B) contained in a registration statement
of, or otherwise issued by, an investment company;
(C) made in connection with a tender offer;
(D) made in connection with an initial
public offering;
(E) made in connection with an offering
by, or relating to the operations of, a partnership, limited liability company, or a direct participation investment program; or
(F) made in a disclosure of beneﬁcial
ownership in a report required to be ﬁled with
the Commission pursuant to section 78m(d) of
this title.
(c) Safe harbor
(1) In general
Except as provided in subsection (b), in any
private action arising under this subchapter that
is based on an untrue statement of a material fact
or omission of a material fact necessary to make
the statement not misleading, a person referred to
in subsection (a) shall not be liable with respect to
any forward-looking statement, whether written
or oral, if and to the extent that—
(A) the forward-looking statement is—
(i) identiﬁed as a forward-looking
statement, and is accompanied by meaningful cautionary statements identifying
important factors that could cause actual

35a
results to differ materially from those in
the forward-looking statement; or
(ii) immaterial; or
(B) the plaintiff fails to prove that the
forward-looking statement—
(i) if made by a natural person, was
made with actual knowledge by that person that the statement was false or misleading; or
(ii) if made by a business entity,
was—
(I) made by or with the approval of an executive ofﬁcer of that
entity, and
(II) made or approved by such officer with actual knowledge by that ofﬁcer that the statement was false or
misleading.
(2) Oral forward-looking statements
In the case of an oral forward-looking statement made by an issuer that is subject to the reporting requirements of section 78m(a) or section
78o(d) of this title, or by a person acting on behalf
of such issuer, the requirement set forth in paragraph (1)(A) shall be deemed to be satisﬁed—
(A) if the oral forward-looking statement
is accompanied by a cautionary statement—
(i) that the particular oral statement is a forward-looking statement; and

36a
(ii) that the actual results could differ materially from those projected in the
forward-looking statement; and
(B) if—
(i) the oral forward-looking statement
is accompanied by an oral statement that
additional information concerning factors
that could cause actual results to differ
materially from those in the forwardlooking statement is contained in a readily available written document, or portion
thereof;
(ii) the accompanying oral statement
referred to in clause (i) identiﬁes the document, or portion thereof, that contains
the additional information about those
factors relating to the forward-looking
statement; and
(iii) the information contained in that
written document is a cautionary statement that satisﬁes the standard established in paragraph (1)(A).
(3) Availability
Any document ﬁled with the Commission or
generally disseminated shall be deemed to be
readily available for purposes of paragraph (2).
(4) Effect on other safe harbors
The exemption provided for in paragraph (1)
shall be in addition to any exemption that the
Commission may establish by rule or regulation
under subsection (g).

37a
(d) Duty to update
Nothing in this section shall impose upon any person a duty to update a forward-looking statement.
(e) Dispositive motion
On any motion to dismiss based upon subsection
(c)(1), the court shall consider any statement cited in
the complaint and cautionary statement accompanying the forward-looking statement, which are not subject to material dispute, cited by the defendant.
(f ) Stay pending decision on motion
In any private action arising under this subchapter, the court shall stay discovery (other than discovery
that is speciﬁcally directed to the applicability of the
exemption provided for in this section) during the pendency of any motion by a defendant for summary judgment that is based on the grounds that—
(1) the statement or omission upon which the
complaint is based is a forward-looking statement
within the meaning of this section; and
(2) the exemption provided for in this section
precludes a claim for relief.
(g) Exemption authority
In addition to the exemptions provided for in this
section, the Commission may, by rule or regulation,
provide exemptions from or under any provision of this
subchapter, including with respect to liability that is
based on a statement or that is based on projections or
other forward-looking information, if and to the extent
that any such exemption is consistent with the public

38a
interest and the protection of investors, as determined
by the Commission.
(h) Effect on other authority of Commission
Nothing in this section limits, either expressly or
by implication, the authority of the Commission to exercise similar authority or to adopt similar rules and
regulations with respect to forward-looking statements under any other statute under which the Commission exercises rulemaking authority.
(i) Deﬁnitions
For purposes of this section, the following deﬁnitions shall apply:
(1) Forward-looking statement
The term “forward-looking statement”
means—
(A) a statement containing a projection of revenues, income (including income loss), earnings (including earnings
loss) per share, capital expenditures, dividends, capital structure, or other ﬁnancial items;
(B) a statement of the plans and
objectives of management for future operations, including plans or objectives relating to the products or services of the
issuer;
(C) a statement of future economic
performance, including any such statement
contained in a discussion and analysis of
ﬁnancial condition by the management or

39a
in the results of operations included pursuant to the rules and regulations of the
Commission;
(D) any statement of the assumptions underlying or relating to any statement described in subparagraph (A), (B),
or (C);
(E) any report issued by an outside
reviewer retained by an issuer, to the extent that the report assesses a forwardlooking statement made by the issuer; or
(F) a statement containing a projection or estimate of such other items as
may be speciﬁed by rule or regulation of
the Commission.
(2) Investment company
The term “investment company” has the same
meaning as in section 80a-3(a) of this title.
(3) Penny stock
The term “penny stock” has the same meaning
as in section 78c(a)(51) of this title, and the rules
and regulations, or orders issued pursuant to that
section.
(4) Going private transaction
The term “going private transaction” has the
meaning given that term under the rules or regulations of the Commission issued pursuant to section 78m(e) of this title.

40a
(5) Securities laws
The term “securities laws” has the same
meaning as in section 78c of this title.
(6) Person acting on behalf of an issuer
The term “person acting on behalf of an issuer” means an ofﬁcer, director, or employee of the
issuer.
(7) Other terms
The terms “blank check company”, “rollup
transaction”, “partnership”, “limited liability company”, “executive ofﬁcer of an entity” and “direct
participation investment program”, have the meanings given those terms by rule or regulation of the
Commission.

